                                                                          EMPLOYMENT AND TRAINING

U.S. Department of Labor
                                                 ADMINISTRATION


                            Office of Inspector General—Office of Audit




                                                                          AUDIT OF WORKFORCE INVESTMENT ACT
                                                                          DATA VALIDATION FOR THE ADULT
                                                                          AND DISLOCATED WORKER PROGRAMS




                                                                                            Date:         September 30, 2009

                                                                                            Report Number: 03-09-003-03-390 

U.S. Department of Labor                                     September 2009
Office of Inspector General
Office of Audit                                              AUDIT OF WORKFORCE INVESTMENT ACT
                                                             DATA VALIDATION FOR THE ADULT AND
                                                             DISLOCATED WORKER PROGRAMS
BRIEFLY…
                                                             WHAT OIG FOUND
Highlights of Report Number: 03-09-003-03-390, Audit
of Workforce Investment Act Data Validation for the          The OIG found that ETA provided extensive guidance
Adult and Dislocated Worker Programs, to the Assistant       to SWAs in preparing for and implementing data
Secretary for Employment and Training.                       validation; however, it needs to strengthen its oversight
                                                             to ensure SWAs are conducting data validations
WHY READ THE REPORT                                          correctly. Our analysis of participant files from the
                                                             SWAs’ data element validation reviews found they were
The U.S. Department of Labor (DOL) Office of Inspector       not validated using the appropriate ETA criteria or
General (OIG) performed an audit of the Employment           source documentation. This occurred in part because
and Training Administration’s (ETA) data validation          ETA did not finalize the draft guide for monitoring the
initiative for the Workforce Investment Act (WIA) Adult      SWAs’ data validation process. Without sufficient
and Dislocated Worker programs. ETA implemented              oversight, ETA has no assurance that data validation is
data validation to ensure that state workforce agencies      operating as designed.
(SWA) report accurate and reliable WIA performance
data. ETA uses this data to report WIA performance           We also noted that ETA is not updating the software
measure results in DOL’s annual Performance and              used for data validation on a timely basis because it has
Accountability Report. Data validation requires SWAs to      not had sufficient funds for the maintenance needed to
conduct (1) report validation by assessing whether their     ensure it operates efficiently and addresses changes in
software accurately calculated performance outcomes          performance reporting requirements as they occur. This
in their Annual Performance Reports to ETA, and              has negatively impacted the effectiveness and
(2) data element validations by reviewing samples of         efficiency of using the data validation software.
WIA participant files to check the accuracy of the data
that the SWAs use to calculate performance outcomes.         We also found reported participant and exiter data was
The data element validation is performed after the           inconsistent from SWA-to-SWA because the
report validation in order to detect and identify specific   instructions did not clarify which self-service participants
problems with an SWA’s WIA reporting process.                and exiters should be counted. As a result, Congress,
                                                             stakeholders, the public, and other interested parties do
WHY OIG CONDUCTED THE AUDIT                                  not have accurate information on participation levels
                                                             which is needed to fully report on whether the One-Stop
OIG conducted the audit to answer the following              systems are meeting the needs of business and the
question:                                                    workforce.

    Does ETA exercise adequate oversight of the              WHAT OIG RECOMMENDED
    SWAs’ data validation of WIA performance data?
                                                             The OIG recommended that the Assistant Secretary for
The audit covered data SWAs reported for Program             Employment and Training finalize the Data Validation
Year (PY) 2006 (July 1, 2006, through June 30, 2007),        Monitoring Guide, require the regional offices to
the latest PY that was subject to the data validation        implement a monitoring plan of data validation at the
process at the time of our audit. The audit also included    SWAs, and provide regional offices access to data
analysis of reported self-service participant and exiter     validation results that they can use to assist them in
data covering PYs 2005 through 2007. We reviewed a           monitoring SWAs. We also recommended ETA
statistical sample of participant files used to perform      sufficiently fund for maintaining and revising the data
data element validation at the SWAs in Michigan, Utah,       validation software and develop and disseminate
and Texas.                                                   instructions that clearly define how SWAs should report
                                                             self-service participants and exiters.
READ THE FULL REPORT
                                                             HOW THE AUDITEE RESPONDED
To view the report, including the scope, methodology,
and full agency response, go to:                             ETA responded that they generally concurred with the
                                                             recommendations, and initiated several steps in the
http://www.oig.dol.gov/public/reports/oa/2009/               direction of the recommendations.
03-09-003-03-390.pdf
                                                               Department of Labor – Office of Inspector General



Table of Contents 

Assistant Inspector General’s Report ......................................................................... 1


Results and Findings .................................................................................................... 4


Objective — Does ETA exercise adequate oversight of the SWAs’ data validation 

of WIA performance data?............................................................................................ 4

          Finding 1 — ETA has not implemented an effective monitoring process 

             to ensure that data validation for the Adult and Dislocated Worker 

             programs is operating as designed. ................................................................ 4

          Finding 2 — ETA is not adequately maintaining the data validation 

             software.... .................................................................................................... 10

          Finding 3 — ETA did not provide clear instructions to ensure that SWAs 

             consistently report the number of self-service participants and exiters 

             served by their One-Stop systems. ............................................................... 12


Recommendations ...................................................................................................... 14


Exhibits ........................................................................................................................ 17 

          Exhibit 1 Statistical Results of Audit of Sample of SWA Data Validation 

             Files .............................................................................................................. 19

          Exhibit 2 WIA Annual Report Instructions Describing the Elements in 

             Table M for the Adult and Dislocated Worker Programs ............................... 21


Appendices.................................................................................................................. 23

          Appendix A Background ..................................................................................... 25

          Appendix B Objective, Scope, Methodology, and Criteria .................................. 31

          Appendix C Acronyms and Abbreviations .......................................................... 35

          Appendix D Agency Response ........................................................................... 37





                                                                      WIA Adult and Dislocated Worker Data Validation
                                                                                         Report No. 03-09-003-03-390
             Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                  WIA Adult and Dislocated Worker Data Validation
                                     Report No. 03-09-003-03-390
                                           Department of Labor – Office of Inspector General


U.S. Department of Labor                 Office of Inspector General
                                         Washington, D.C. 20210




September 30, 2009

                        Assistant Inspector General’s Report

Ms. Jane Oates
Assistant Secretary
 for Employment and Training
U.S. Department of Labor
200 Constitution Avenue, NW
Washington, D.C. 20210

The U.S. Department of Labor (DOL) Office of Inspector General (OIG) performed an
audit of the Employment and Training Administration’s (ETA) data validation initiative for
the Workforce Investment Act (WIA) Adult and Dislocated Worker programs. WIA is
designed to provide employment and training services to assist eligible individuals in
finding and qualifying for meaningful employment and to help employers find the skilled
workers they need to compete and succeed in business. The Adult and Dislocated
Worker programs are two of WIA’s employment and training programs. The Adult
program provides employment and training activities for adults, including low-income
individuals and public assistance recipients. The Dislocated Worker program provides
reemployment services and retraining assistance to individuals permanently dislocated
from their employment. WIA provides formula-based funding to state workforce
agencies (SWA) to design and operate both of the training programs. Funding for both
programs totaled $2.2 billion in fiscal year (FY) 2009.

In October 2004, ETA implemented a data validation initiative for WIA to ensure that
SWAs report accurate and reliable WIA performance data. ETA designed data
validation to minimize the SWA’s reporting burden and provide clear standards for
assessing the validity of data. ETA uses this data to report WIA performance measure
results in DOL’s annual Performance and Accountability Report (PAR). Data validation
requires SWAs to conduct (1) report validation by assessing whether its software
accurately calculated performance outcomes in its Annual Performance Report to ETA,
and (2) data element validations by reviewing samples of WIA participant files to check
the accuracy of the data that the SWAs use to calculate performance outcomes. The
data element validation is performed after the report validation in order to identify
specific problems with an SWA’s WIA reporting process so as to enable the SWA to
correct the problems. Data validation is intended to meet ETA’s Government
Performance and Results Act (GPRA) responsibilities that the performance data is
reasonably accurate. In the PARs for FYs 2007 and 2008, ETA reported that the data
quality for WIA performance goals was rated Very Good. Part of its basis for the rating
was the agency’s extensive effort made to improve data quality through the use of the
data validation system and monitoring at both the national and regional levels.

                                                                       WIA Data Validation Program
                                             1                         Report No. 03-03-003-03-390
                                          Department of Labor – Office of Inspector General



There are three GPRA performance measures for Federal employment and training
programs, referred to as the “common measures”  increase in employment,
retention, and earnings of individuals who received employment and training services
and exited the program. In the FY 2008 PAR, DOL reported that Adult and Dislocated
Worker programs did not achieve their performance goals. The Adult program did not
achieve one of the three common measure targets and the Dislocated Worker goal did
not achieve two.

We conducted an audit of ETA’s data validation initiative to answer the following
question:

   Does ETA exercise adequate oversight of the SWAs’ data validation of WIA
   performance data?

The audit covered data reported by the SWAs for the Adult and Dislocated Workers
program for Program Year (PY) 2006 (July 1, 2006, through June 30, 2007), the latest
PY that was subject to the data validation process at the time of our audit. The audit
also included analysis of reported self-service participant and exiter data covering
PYs 2005 through 2007. We performed audit work at SWAs in Michigan, Utah, and
Texas; and at ETA regional offices in Chicago and Dallas.

To accomplish the audit objective we obtained an understanding of the program by
reviewing documentation and interviewing ETA national and regional office
management and staff responsible for administering data validation. We also reviewed
documentation and conducted interviews at the three SWAs visited. We obtained an
understanding of the SWAs’ data validation process and reviewed a statistical sample of
participant files that the SWAs used to perform their data element validation.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives. Our objective, scope, methodology, and criteria are detailed in
Appendix B.

RESULTS IN BRIEF

ETA provided extensive guidance to SWAs in preparing for and implementing data
validation; however, it needs to strengthen its oversight to ensure SWAs are conducting
data validations correctly. We found that the three SWAs audited did not properly
conduct data element validation reviews of participant files for the WIA Adult and
Dislocated Workers programs. Overall, our analysis of participant files from the SWAs’
data element validation reviews found they were not validated using the appropriate
ETA criteria or source documentation. This occurred because (1) the SWAs did not fully


                                                                WIA Data Validation Program
                                            2                   Report No. 03-03-003-03-390
                                           Department of Labor – Office of Inspector General


understand ETA data element validation requirements or the instructions for validating
data elements in participant exit records; (2) ETA regional offices did not finalize the
draft guide for monitoring the SWAs’ data validation process and did not follow the draft
guide’s procedures for conducting data validation reviews; and (3) ETA regional offices
did not have access to two reports on the SWAs’ data validation results that would
assist them in their monitoring efforts and enhance their technical assistance to the
SWAs. Without an effective monitoring process, ETA has no assurance that data
validation is operating as designed so that the data can be relied upon for accurately
reporting performance results for the Adult and Dislocated Worker programs.

We also noted ETA is not updating the software used for data validation on a timely
basis because it has not had sufficient funds for the maintenance needed to ensure it
operates efficiently and addresses changes in performance reporting requirements as
they occur. ETA has had to reduce funding for data validation since 2006 because it
was faced with reduced appropriations. ETA officials told us that while they appreciate
the critical role data validation plays in assuring the quality of performance data,
investments in data validation had to compete with other high priority activities when
budget reductions occurred. ETA officials said this fact is reflected in the reductions in
data validation funding. As a result, the insufficient funding has negatively impacted the
timeliness of the software availability. With the lack of software upgrades, the
effectiveness and efficiency of using the data validation software as a tool to improve
the accuracy and reliability of WIA performance data has been compromised.

We also found that reported participant and exiter data was inconsistent from
SWA-to-SWA because the instructions did not clarify which self-service participants and
exiters should be counted. ETA implemented the requirements and instructions for
SWAs to report data on self-service participants and exiters in PY 2005; however,
based on the requirement and instructions given, not all of the 53 SWAs have included
this information in their WIA annual reports. WIA requires ETA establish a
comprehensive performance accountability system, and Training and Employment
Guidance Letter (TEGL) 17-05 requires SWAs use that system to annually report
progress in achieving performance measures. Because not all states are reporting self-
service participant and exiter data consistently, Congress, stakeholders, the public, and
other interested parties do not have accurate information on participation levels; and
that information is needed to fully report on whether the One-Stop systems are meeting
the needs of business, the workforce, and contributing to economic growth. Until clear
instructions are issued, ETA will continue to operate without any substantive assurance
that the total participant level counts for WIA are reliable.

We recommended that ETA finalize the Data Validation Monitoring Guide, require the
regional offices to implement a monitoring plan of data validation at the SWAs, and
provide regional offices access to data validation results that they can use to assist
them in monitoring SWAs. We also recommended ETA sufficiently fund for maintaining
and revising the data validation software. Finally we recommend ETA develop and
disseminate instructions that clearly define how SWAs should report self-service
participants and exiters and work with the SWAs that are not reporting self-service


                                                                 WIA Data Validation Program
                                             3                   Report No. 03-03-003-03-390
                                                   Department of Labor – Office of Inspector General


participants and exiters to ensure their compliance with the reporting instructions. In
response to our draft report, ETA generally concurred with the recommendations, and
initiated several steps in the direction of these recommendations. ETA’s written
response to the draft report is provided in its entirety in Appendix D

RESULTS AND FINDINGS

Objective — Does ETA exercise adequate oversight of the SWAs’ data validation
           of WIA performance data?

Finding 1 — ETA has not implemented an effective monitoring process to ensure
            that data validation for the Adult and Dislocated Worker programs is
            operating as designed.

ETA provided extensive guidance to SWAs in preparing for and implementing data
validation; however, it needs to strengthen its oversight to ensure SWAs are conducting
data validations correctly. We found that the three SWAs audited did not properly
conduct data element validation reviews of participant files for the WIA Adult and
Dislocated Workers programs. Overall, our analysis of 622 participant files from the
SWAs’ data element validation reviews found that 263, or 42 percent, were not
validated using the appropriate ETA criteria or source documentation. This occurred
because:

      	 The SWAs did not fully understand ETA data element validation requirements or
         the instructions for validating data elements in participant exit records;

      	 ETA did not finalize the draft guide for monitoring data validation and ETA
         regional offices did not follow the draft guide’s procedures for conducting data
         validation reviews; and

      	 ETA regional offices did not have access to two reports on the SWAs’ data
         validation results that would assist them in their monitoring efforts and enhance
         their technical assistance to the SWAs.

Without an effective monitoring process, ETA has no assurance that data validation is
operating as designed so that the data can be relied upon for accurately reporting
performance results for the Adult and Dislocated Worker programs.

SWAs Did Not Properly Conduct Data Validation

Federal regulations1 require SWAs to report participant and performance data in
accordance with DOL instructions, and allow ETA to sanction SWAs that submit annual
performance reports that cannot be validated or verified as accurately reporting
activities in accordance with the reporting instructions. In October 2004, ETA

1
    Code of Federal Regulations (CFR) Title 2, Part 667, Subpart C, Reporting Requirements.

                                                                            WIA Data Validation Program
                                                     4                      Report No. 03-03-003-03-390
                                               Department of Labor – Office of Inspector General


implemented a data validation initiative for WIA to ensure that SWAs report accurate
and reliable WIA performance data. ETA designed data validation to minimize the
SWA’s reporting burden and provide clear standards for assessing the validity of data.
Data validation is intended to detect and identify specific problems with an SWA’s WIA
reporting process so as to enable the SWA to correct the problems. ETA instructions2
require SWAs to validate the accuracy of Workforce Investment Act Standard Record
Data (WIASRD) participant data records by comparing selected information from the
sample of participant exit records with the original paperwork supporting the information.
ETA provides the validation rules, conditions to be used when records were missing or
invalid, and the source documentation requirements for each of the data elements to be
validated. ETA also issued instructions3 to the SWAs defining participants, program
participation, program exit, and exit dates. For most data elements, the validation
instructions provided multiple forms of acceptable source documentation. If the SWA
collects multiple sources for the same data element and the sources conflict, the most
reliable source should be used to determine if the element passes or fails. For example,
copies of records from a training provider are a more reliable source than participant
self attestation.

The three SWAs audited did not properly conduct data element validation reviews of
participant files for the WIA Adult and Dislocated Workers programs. Our analysis of
participant files from the SWAs’ data element validation reviews found that they were
not validated using the appropriate ETA criteria or source documentation. For the Adult
program, we estimate with a 97.5 percent confidence level, that the percentage of the
validation reviews not done correctly was at least greater than 1 percent for Michigan,
and at least greater than 27 percent and 61 percent, respectively, for Texas and Utah.
However, the unbiased point estimate is 4 percent for Michigan, and 34 percent and 68
percent, respectively, for Texas and Utah. For the Dislocated Worker program, we
estimate with 97.5 percent confidence level, that the percentage of the data element
validation reviews not done correctly was at least greater than 9 percent for Michigan,
and at least greater than 34 percent and 79 percent, respectively, for Texas and Utah.
However, the unbiased point estimate is 15 percent for Michigan, and 41 percent and
84 percent, respectively, for Texas and Utah. See Exhibit 1 for details.

ETA considers a participant file to have failed if at least one or more elements in the file
did not agree with ETA-approved criteria or was not supported by the required source
documentation. We found that SWAs either improperly passed a data element that was
not supported by the required source documentation or, conversely, improperly failed a
data element when the required source documentation agreed with the data element.
The following table provides a list of data elements for which five percent or more failed
in our testing for each program.


2
  TEGL No. 3-03, dated August 20, 2003 and Training and Employment Notice (TEN) No. 19-07, PY 2006 

Reporting and Data Validation Timeline.

3
  TEGL No. 17-05, Common Measures Policy for the ETA Performance Accountability System and 

Related Performance Issues, February 17, 2006. 



                                                                       WIA Data Validation Program
                                                5                      Report No. 03-03-003-03-390
                                            Department of Labor – Office of Inspector General


       Table 1 – Data Elements Failed in Participant Files Sampled for the Three
                 SWAs Combined
                                              Total        Total     Percentage
       Element                              Sampled        Failed       Failed
                                       Adult Program
       Program Exit Date                        219           54           25%
       Enter Training Date                      337           51           15%
       Exit Training Date                       219           23           11%
       First Intensive Service Date             337           20            6%
       First Core Service Date                  219           10            5%
                                 Dislocated Workers Program
       Qualifying Dislocation Date              285           66           23%
       Program Exit Date                        210           45           21%
       Enter Training Date                      210           35           17%
       Exit Training Date                       210           30           14%
       Program Participation Date               210           18            9%
       First Intensive Service Date             285           24            8%
       First Core Service Date                  210           16            8%

The following provides details on our audit of the elements listed in Table 1.

       Program Exit Date  Date on which the last service funded by the program or a
       partner program is received by the participant. Once a participant has not
       received any services funded by the program or a partner program for 90
       consecutive calendar days and has no gap in service and is not scheduled for
       future services, the date of exit is applied retroactively to the last day on which
       the individual received a service funded by the program or a partner program.
       The source of the date is from the WIA status/exit forms, SWA MIS data, and
       case notes.

       We found the documentation contained in the participants’ files did not support
       the program exit date. An SWA official indicated that it took them approximately 9
       months to understand exactly what ETA wanted under the new Common
       Measures. Additionally, the SWA’s management information system (MIS) did
       not automatically exit participants after 90 days without a service; therefore, it
       was the case manager’s responsibility to exit the participant. The SWA is
       planning to modify their MIS to automatically exit participants.

       Qualifying Dislocation Date  Date of separation or dislocation from employment.
       The source of the date is verification from the employer, rapid response list,
       notice of layoff, public announcement with follow-up cross-match with UI, or self
       attestation.

       We found the documentation in the participants’ files did not support the reported
       date or there was information in the file that contradicted the qualifying
       dislocation date. Additionally, there were incidents in which the SWAs failed the

                                                                   WIA Data Validation Program
                                             6                     Report No. 03-03-003-03-390
                                     Department of Labor – Office of Inspector General


qualifying dislocation date when there was documentation in the file to support
the date.

Entered Training Date  Date on which the individual's training actually began. If
multiple training services were received, the earliest date is recorded on which
the individual entered training. Otherwise, the field is left "blank" if the individual
did not receive training. The source of the date is cross-matched between dates
of service and vendor training information, vendor training documentation, SWA’s
MIS, or case notes.

We found documentation in the participants’ files did not support the date entered
training or there was vendor training documentation that contradicted the date
entered training. The SWAs misinterpreted which documents they should use
(which documents carry a higher value) for training service elements
(entered/exit training). For example, an SWA used the MIS to validate the date
entered training; however, we found documentation from the training vendor that
contradicted the MIS date. According to ETA instructions, the documentation
from the training vendor is a more reliable source and therefore should have
been used.

Exit Training Date  Date when the participant completed training or withdrew
permanently from training. If multiple training services were received, the most
recent date on which the individual completed training is recorded. Otherwise,
the field is left "blank" if the individual did not receive training services. The
source of the date is cross-matched between dates of service and vendor
training information, vendor training documentation, the SWA’s MIS, or case
notes.

We found the participants’ files did not support the date or there was vendor
training documentation that contradicted the date exit training. There were also
incidents in which the file contained documentation to support the date; however,
the SWAs failed the data element.

Program Participation Date  Date on which the individual begins receiving
his/her first service funded by the program following a determination of eligibility
to participate in the program. The source for the date is from information in the
SWA’s MIS.

We found the documentation in the participants’ files did not support the program
participation date or the SWA had failed the program participation date when
there was documentation in the file to support the date.

First Intensive Service Date  Date on which the individual received his/her first
intensive service. Otherwise, the field should be left "blank" if the individual did
not receive intensive services. The source for the date is information from the
SWA’s MIS data or case notes.

                                                            WIA Data Validation Program
                                       7                    Report No. 03-03-003-03-390
                                           Department of Labor – Office of Inspector General



       We found the SWAs’ MIS did not support the first intensive service date listed on
       the Data Reporting and Validation System (DRVS) worksheets. There were also
       incidents in which the SWAs’ MIS supported the date but the SWA had failed the
       data element. One SWA validated the most recent intensive service received
       date instead of the first date because their MIS automatically entered the most
       recent training date.

       First Staff Assisted Core Service Date  Date on which the individual received
       his/her first staff assisted core service (excluding self-service and informational
       activities). Otherwise, the field should be left "blank" if the individual did not
       receive staff assisted core services. The source for the date is from information in
       the SWA’s MIS.

       We found the SWAs’ MIS did not support the first staff assisted core service date
       listed on the DRVS worksheets or the SWAs’ MIS did support the date; however,
       the SWA failed the data element.

SWA officials told us they appreciated the information the audit provided and believed it
will assist them in identifying areas of needed improvement in their data validation
processes.

As a result of the SWAs not complying with ETA data element validation requirements,
the process is not operating as intended to ensure that error-rate results are accurate
for each data element. Without accurate error-rate results, the SWA cannot properly
evaluate the quality of the reported performance data and take corrective action to
improve their accuracy for the next program year.

ETA Monitoring of SWA Data Validation

Government Accountability Office (GAO) Standards for Internal Controls in the Federal
Government, and Office of Management and Budget (OMB) Circular A-123 provide
standards for the overall framework for establishing and maintaining internal controls.
Monitoring is one of the internal control standards that management needs to apply in
developing and maintaining internal control activities. ETA stated in its TEGL 3-03, that
it will monitor the validation effort on a regular schedule to ensure that SWAs are able to
successfully complete validation procedures and standards. Additionally, GPRA
requires each agency to prepare an annual performance plan covering each program
activity set forth in the agency’s budget and that the plan describe the means to be used
to verify and validate measured values. OMB Circular A-11, Part 6, Section 230.5,
Assessing the Completeness and Reliability of Performance Data, requires agencies to
have in place verification and validation techniques that will ensure the completeness
and reliability of all performance measurement data contained in their annual
performance plans and annual performance reports.




                                                                 WIA Data Validation Program
                                             8                   Report No. 03-03-003-03-390
                                                   Department of Labor – Office of Inspector General


In a 2005 audit of WIA performance data, GAO reported that ETA had inconsistent
monitoring processes across its regional offices for reviewing performance data.
Specifically, ETA did not have a standard data monitoring guide in place and regional
office oversight procedures did not usually include verifying the accuracy of a sample of
the data submitted by states. GAO recommended that ETA establish standard
monitoring procedures that regional offices could use to oversee state data validation
efforts.

In 2006, ETA informed GAO it planned to modify the data validation software to allow
Federal staff to pull a sub-sample of state data validation records and conduct a review
of those records. However, in 2008, ETA reported that while it continued to be
interested in modifying the software for the above purpose, due to resource constraints,
the agency gave priority to making software enhancements that made it easier for the
SWAs to carry out their data validation responsibilities.

ETA has provided extensive guidance to SWAs to prepare them for implementing and
conducting data validation4; however, the agency has not implemented a monitoring
process which includes reviews of participant files as recommended by GAO, and has
not made available to the regional offices information that could assist them in
monitoring data validation at the SWAs. Specifically, the two ETA regional offices we
visited had not implemented a monitoring plan:

    	 The Dallas regional office, which is responsible for 11 SWAs, set a goal to
       perform data validation reviews at four SWAs each year. However, it conducted
       only two reviews over the past two fiscal years. Staff told us they planned to
       conduct more reviews but they were either cancelled or postponed due to staffing
       or funding constraints.

    	 The Chicago regional office, which is responsible for 10 SWAs, wanted to
       complete reviews at all 10 SWAs over a 2-year period. However, the last review
       the staff conducted was in September 2006. They planned to perform two
       reviews before the end of FY 2008, but these were cancelled because of severe
       staffing and funding shortages.

ETA drafted the Data Validation Monitoring Guide for regional staff to use to monitor the
SWAs' implementation of data validation but has not finalized it. The purpose of the
draft guide was to monitor the SWA’s validation results to ensure that they are
conforming to ETA requirements, and identify areas where a state needs to improve its
reporting accuracy. The guide stated that the core of the monitoring process should
occur as soon as possible after an SWA completes its validation cycle, and is generally
accomplished through an on-site review at the SWA where the validation records and
supporting documentation are maintained. The guide allowed reviewers to conduct

4
 ETA provided technical assistance on the integration of quality controls into data collection and reporting
systems, conducted several regional training sessions and webinars to address technical and policy
questions about performance reporting, and issued revised guidance on WIA incentives and sanctions in
which data validation results was one of the criterion for WIA incentive awards.

                                                                             WIA Data Validation Program
                                                     9                       Report No. 03-03-003-03-390
                                                    Department of Labor – Office of Inspector General


some, or even all, of the core monitoring tasks remotely by having the SWA provide
supporting documentation or remote access to it. Therefore, even with funding and
staffing shortages, there is a mechanism in the draft guide that would allow for regional
offices to perform data validation monitoring remotely.

In addition to the lack of a monitoring guide, neither of the ETA regional offices had
access to MIS reports – the Report Validation Summary Report5 and Data Element
Validation Summary6 – that would have assisted them in monitoring SWA data
validation. Chicago staff told us they have not been able to access the reports for the
last two years (PYs 2005 and 2006). They believe the cause of the lost functionality was
the merger of the Enterprise Business Support System (EBSS)7 into ETA’s E-Grant
system when ETA implemented the Common Measures for WIA performance. ETA
regional offices are supposed to have access to EBSS so they can review SWAs’ WIA
Annual Performance Report, ETA-9091, for completeness and electronically sign off on
it as accepted.

ETA cannot demonstrate on-going monitoring of data validation at the regional level and
it has not implemented the draft monitoring guide cited. Although ETA provided
guidance to SWAs to prepare them for implementing and conducting data validation,
without an established monitoring process, ETA has no assurance of the effectiveness
of its front-end implementation efforts with the SWAs.

Finding 2 — ETA is not adequately maintaining the data validation software.

ETA is not updating the software used for data validation on a timely basis because it
has not had sufficient funds for the maintenance needed to ensure it operates efficiently
and addresses changes in performance reporting requirements as they occur. ETA has
had to reduce funding for data validation since 2006 because it was faced with reduced
appropriations. ETA officials told us that while they appreciate the critical role data
validation plays in assuring the quality of performance data, investments in data
validation must compete with other high priorities when budget reductions have
occurred. ETA officials stated this fact is reflected in the reductions in data validation
funding. As a result, the insufficient funding negatively impacted the timeliness of the

5
 The Report Validation Summary Report is created after the SWAs’ WIA Annual Performance Report,
ETA 9091, completes the report validation process in which the validation software compares validation
values to the reported values. The report displays the difference between the two sets of values including
a percentage difference, and it is used to compare the SWA-level data to similar data for variances and
error rates.
6
  The Data Element Validation Summary contains the results of a sample of records of exiters. Data
validation software selects the individual records to validate, after which the software determines the error
rate by funding group. The report lists the error rates for each data element validated and it is used to
identify the error rates of data elements that support the WIA Annual Performance Report, ETA 9091.
7
  EBSS is the management information system used by ETA to process and generate reports on the WIA
performance data. Within EBSS, the Data Reporting and Validation System (DRVS) provides WIA report
validation and data element validation information. This system allows the SWAs to review and validate
their WIA reporting data before final submission to the ETA National Office.

                                                                              WIA Data Validation Program
                                                     10                       Report No. 03-03-003-03-390
                                          Department of Labor – Office of Inspector General


software availability. With the lack of software upgrades, the effectiveness and
efficiency of using the data validation software as a tool to improve the accuracy and
reliability of WIA performance data has been compromised.

ETA contracted with Mathematica Policy Research (Mathematica) to develop and
maintain the DRVS data validation software. The DRVS software reads participant
records in the WIASRD format and performs all of the processing required to conduct
the validation, and can be used to generate the WIA Annual Performance Report. ETA
provided the DRVS software at no cost to the SWAs, and Mathematica worked directly
with the SWAs to provide information about application installation, WIA data files,
performance reports, and any other issues related to the DRVS.

Data validation funding has decreased significantly since ETA’s implementation of the
Common Measures for PY 05. Funding for data validation averaged $660,812 annually
in 2005 and 2006, but subsequent years’ funding has decreased by 51 percent, to
$322,293, in 2007; and by 93 percent, to $45,483, in 2008. ETA officials explained that
they considered data validation a lower priority when faced with reduced budgets during
the past several fiscal years. ETA's overall appropriated funds decreased approximately
25 percent during this period, from $11.3 billion in FY 2005 to $8.5 billion in FY 2009.
The reduction in data validation funding has adversely affected the SWAs’ ability to
perform data validations. Examples include:

   	 An ETA official told us there has been a decline in SWAs using the DRVS to
      generate their WIA Annual Report. The official provided us a list which showed
      that For PY 2006, eight SWAs discontinued using the DRVS to generate the WIA
      Annual Report. Although use of the DRVS to generate the WIA Annual Report is
      not required, SWAs can use it to address inconsistencies in calculating the
      performance measures and verify the accuracy of outcomes reported from the
      data in the SWAs’ MIS. The DRVS accomplishes this by checking the accuracy
      of the SWAs’ software used to calculate Annual Performance Report submitted
      to ETA. If these SWAs would have continued, the number of SWAs using the
      DRVS to generate the WIA Annual Report would have totaled 33.

   	 The DRVS is used by the SWAs to generate the sample of participant files to be
      used in data element validation. An official from one of the SWAs in our audit told
      us that last year the final DRVS software patch was sent out after they already
      generated their sample and began reviewing the participant files. The team could
      not load the patch because they would have had to generate a new sample and
      restart their work. This would have disrupted the planning of the resources
      needed to conduct the data element validation.

   	 An SWA explained that it could not meet the ETA reporting deadlines for PY
      2007 because they did not receive the DRVS software updates in time.




                                                                WIA Data Validation Program
                                           11                   Report No. 03-03-003-03-390
                                                 Department of Labor – Office of Inspector General


    	 The Texas Workforce Commission (TWC) is a pilot demonstration SWA using
       the new Workforce Investment Streamlined Performance Reporting (WISPR)8
       format to submit participant file data. ETA plans to replace WIASRD with WISPR.
       Initially, Mathematica was available to reformat TWC’s WISPR so that the DRVS
       software could be used to generate the participant sample needed to perform the
       data element validation. Subsequently, ETA had not provided funding to continue
       this and TWC had to use its resources to perform the functions normally done by
       the DRVS software for data element validation.

        Before ETA implements WISPR, it needs to address the funding issue with the
        data validation software so that the DRVS can be used by the SWAs to perform
        data validation functions.

ETA needs to strengthen its oversight to ensure SWAs are conducting data validations
correctly. The SWAs audited did not properly conduct data element validation reviews of
participant files. Without an effective monitoring process, ETA has no assurance that
data validation is operating as designed. Additionally, ETA needs to adequately
maintain the data validation software to ensure it operates efficiently and addresses
changes in performance reporting requirements as they occur.

Finding 3 — ETA did not provide clear instructions to ensure that SWAs
            consistently report the number of self-service participants and
            exiters served by their One-Stop systems9.

Reported participant and exiter data was inconsistent from SWA-to-SWA because the
instructions did not clarify which self-service participants and exiters should be counted
in each data element on Table M10. ETA implemented the requirements and instructions
for SWAs to report data on self-service participants and exiters in PY 200511; however,
based on the requirement and instructions given, not all of the 53 SWAs have included
this information in their WIA annual reports. WIA12 requires ETA establish a
comprehensive performance accountability system, and TEGL 17-05 requires SWAs
use that system to annually report progress in achieving performance measures.
Because not all SWAs are reporting self-service participant and exiter data consistently,
Congress, stakeholders, the public, and other interested parties do not have accurate
information on participation levels; and that information is needed to fully report on
8
  The WISPR system will standardize data elements for participants served through the One-Stop delivery
system and therefore, reduce duplicate record keeping by allowing SWAs to utilize a single set of data
specifications and formats to report.
9
  The One-Stop delivery system is operated by the SWAs and is where participants may receive services
from multiple programs such as Wagner-Peyser, Veterans Employment and Training Service, Workforce
Investment Act Title 1B, National Emergency Grants, and Trade Adjustment Assistance.
10
   Table M – Participation Levels, is one of several tables contained in the WIA Annual Report that SWAs
submit to ETA. Table M contains various data elements concerning the number of individuals served
during the PY. ETA provides a copy of the Annual Report for each SWA to Congress and publishes each
SWA's report on its performance website.
11
   The requirement was issued in TEGL 17-05 and the instructions were issued in the Workforce
Investment Act Annual Report: General Reporting Instructions and ETA Form 9091, Revised 2006.
12
   WIA Subtitle B, Performance Accountability System, Section 136.

                                                                          WIA Data Validation Program
                                                  12                      Report No. 03-03-003-03-390
                                           Department of Labor – Office of Inspector General


whether the One-Stop systems are meeting the needs of business, the workforce, and
contributing to economic growth. Until clear instructions are issued, ETA will continue to
operate without any substantive assurance that the total participant level counts for WIA
are reliable.

The Workforce Investment Act Annual Report: General Reporting Instructions and ETA
Form 9091, Revised 2006, provides the instructions for reporting participants and
exiters in the WIA Annual Report, Table M. There are four data elements each to report
participant and exiter data covering both the Adult and Dislocated Worker programs.
See Exhibit 2 for the data elements and their description, according to the instructions.

Our analysis of the WIA Annual Report, Table M, for PYs 2005 through 2007 showed
that many SWAs did not report their self-service participants and exiters. In PY 2005,
more than 50 percent of the SWAs were not reporting either self-service participants or
exiters. By 2007, the percentages decreased to 21 percent for participants and 26
percent for exiters. The following table provides the number of SWAs not reporting for
each PY.

    Table 4: Number of SWAs Not Reporting Self-Service Participants and Exiters
    PY                                                  2005       2006     2007
    Number SWAs Not Reporting Self-Service Participants  33         21       11
    Percentage to Total of 53 SWAs                      62%        40%      21%
    Number SWAs Not Reporting Self-Service Exiters       31         22       14
    Percentage to Total of 53 SWAs                      58%        42%      26%

ETA officials told us that they have not required SWAs to report self-service participants
and exiters if they do not have the resources to count them.

The SWAs that did report self-service participants and exiters used three different
methods to do so which resulted in inconsistent reporting. We found some SWAs
reported self-service participants solely in the data element for self-service. We also
found some SWAs reported self-service participants in the data elements for total
served for the WIA Adult program where other SWAs did not. Lastly we found some
SWAs reported self-service participants in the data elements for total served for both
the WIA Adult and Dislocated Worker programs where other SWAs did not.

We analyzed the reporting of self-service participants and exiters by the three SWAs
visited, and found that Utah and Texas did not account for them accurately. We
concluded that the ETA instructions were not clear because they did not clarify which
participants and exiters should be counted in each data element on Table M. The
instructions state self-service participants and exiters should have only been reported in
Columns D and E of Table M which are designated as self service only. However, when
we discussed the instructions with ETA officials, we were told that SWAs should also
report self-service participants and exiters in Columns F (“Total Participants Served -
WIA Adults”) and Column G ("Total Exiters - WIA Adults”). ETA officials told us it



                                                                 WIA Data Validation Program
                                            13                   Report No. 03-03-003-03-390
                                           Department of Labor – Office of Inspector General


appears SWAs are not correctly interpreting the reporting instructions and also stated
that the design of the form in the instructions could be misleading.

ETA did not correct the reporting inconsistencies because its review of the reported
participant and exiter data focused on identifying outliers from numbers reported and did
not include any review to determine if the SWAs properly reported self-service
participants and exiters. ETA officials told us they do not have the resources to review
the SWAs’ participant reporting. They said for PY 2006, they did identify outliers for
significant increases or decreases in reporting participants and exiters and followed up
with the ETA regional offices for an explanation. Most of the outliers were attributed to
the reporting of self-service participants.

Collecting data on self-service participants and exiters is important because they
represent a large portion of One-Stop participants. One-Stop staff time and resources
are used to establish and maintain self-service resource rooms and web sites. Without
information on individuals who use self-service, it will be difficult for ETA to show how
effectively One-Stops are being used. Because not all SWAs are reporting data
consistently, Congress, stakeholders, the public, and other interested parties do not
have accurate information on participation levels which is needed to fully measure and
report on whether the One-Stop system is meeting the needs of business and the
workforce, and contributing to economic growth. Until clear instructions are issued, ETA
will continue to operate without any substantive assurance that the total participant level
counts for WIA are reliable.

Recommendations

We recommend that the Assistant Secretary for Employment and Training:

1. 	   In conjunction with regional office representatives, revise and finalize the Data
       Validation Monitoring Guide.

2. 	   Require the regional offices to develop and implement a monitoring plan of data
       validation for the SWAs in their respective jurisdiction.

3. 	   Make the changes necessary to the EBSS to allow regional offices access to
       data validation results that they can use to assist them in monitoring SWAs.

4. 	   Sufficiently fund the DRVS to ensure that the software is maintained and revised
       as needed to improve its efficiency and address the SWAs’ needs, and ensure it
       is operating as designed when WISPR is implemented.

5. 	   Develop and disseminate instructions that clearly define how SWAs should report
       self-service participants and exiters in the WIA Annual Report, Table M.




                                                                 WIA Data Validation Program
                                            14                   Report No. 03-03-003-03-390
                                           Department of Labor – Office of Inspector General


6. 	   Work with SWAs that are not reporting self-service participants and exiters to
       develop corrective actions plans with planned milestone dates to ensure their
       compliance with the reporting instructions.

Agency Response

In response to the draft report, the Assistant Secretary for Employment and Training
stated that ETA generally concurs with the recommendations, and has initiated several
steps in the direction of these recommendations. The response stated that ETA
continues to make the validation of WIA and other program data a priority and, most
importantly, is able to certify that the results included in the PAR have been calculated
and reported by states with a high degree of accuracy. GAO has commended ETA for
implementing the data validation initiative, stating “… almost all state officials we
surveyed reported that Labor’s data validation requirements have helped increase
awareness of data accuracy and reliability.”

ETA responded that it will continue to refine its Core Monitoring Guide, including a Data
Validation Monitoring component. The updated Data Validation Monitoring component
will be submitted to OMB for its clearance by October 2010. Concerning data validation
monitoring, the response stated that ETA will put in place a performance standard for
each Regional Administrator with an expectation to monitor data validation as part of the
regional office annual SWA monitoring efforts. The monitoring plan will include two SWA
onsite data validation monitoring visits each year, with some remote monitoring as
necessary. Also, ETA responded that it will make the changes necessary to the EBSS
to allow regional offices access to data validation results that they can use to assist
them in monitoring SWAs.

Concerning the DRVS software, ETA responded it will continue to maintain the data
validation software system and provide technical assistance to SWAs. The response
stated that since the beginning of PY 2002, ETA has invested approximately $2 million
for the development and maintenance of the software and approximately $4 million for
assistance to help SWAs better their capacity to conduct and report data validation for
employment and training programs. ETA responded that investments in the DRVS were
reduced as the focus turned to maintenance and SWAs gained experience in using it.
During PY 2007 and PY 2008, all but two SWAs submitted its data validation report
results for its annual performance information as contained in the WIA Annual Report.
The two SWAs that did not submit their data validation report results used a pilot
reporting system designed to meet their needs to report WIA performance information,
and both conducted data validation reviews of local area data using systems they have
developed. ETA further responded that as discussion on WIA reauthorization advances,
new reporting and associated data validation requirements will be required. ETA plans
to examine the benefits and costs of options such as a web-based data validation and
reporting system, and will factor in such benefits and costs in making decisions to invest
in the development of a system that would allow ETA to monitor grantee activities and
validate data through a range of reports.



                                                                 WIA Data Validation Program
                                            15                   Report No. 03-03-003-03-390
                                           Department of Labor – Office of Inspector General


To address inconsistencies in SWA reporting for self-service participants, ETA
responded it plans to convene a working group of SWA, local, and federal staff to
assess and refine the definition and instruction and welcomes OIG participation in the
discussion. The response also noted WIA excludes self-service participants from
performance measures, so the WIA Adult and Dislocated Worker performance
outcomes will not be affected by the numbers of self-service participants. For PY 2008,
ETA responded that it will identify those SWAs that do not report self-service participant
counts, and request that appropriate Regional Office staff assist the SWAs so that they
implement procedures to count and report self-service participants.

OIG Conclusion

We consider ETA’s proposed corrective actions to be responsive to the report
recommendations.

We appreciate the cooperation and courtesies extended to us by ETA personnel during
the audit.




Elliot P. Lewis
Assistant Inspector General
 for Audit




                                                                 WIA Data Validation Program
                                            16                   Report No. 03-03-003-03-390
             Department of Labor – Office of Inspector General




Exhibits 





                                   WIA Data Validation Program
              17                   Report No. 03-03-003-03-390
             Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                   WIA Data Validation Program
              18                   Report No. 03-09-003-03-390
                                        Department of Labor – Office of Inspector General


                                                                              Exhibit 1
Statistical Results of Audit of Sample of SWA Data Validation Files

                                                                       95 Percent
                                                                    Confidence Limit
                   SWA         Audit       Point      Sampling      Lower     Upper
SWA/Program       Universe    Sample     Estimate       Error        Limit     Limit
                                       Texas
Adult Program        305        118       33.90%        3.43%       27.18%      40.62%
Dislocated
Worker Program       132        75       41.30%         3.76%       33.93%      48.67%
                                       Utah
Adult Program        287        116      68.10%         3.35%       61.52%      74.68%
Dislocated
Worker Program       237        107     84.10%          2.63%       78.94%      89.26%
                                    Michigan
Adult Program        348        103      3.90%          1.61%        0.75%       7.05%
Dislocated
Worker Program       343        103       14.60%        2.92%        8.87%      20.33%




                                                              WIA Data Validation Program
                                         19                   Report No. 03-09-003-03-390
             Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                   WIA Data Validation Program
              20                   Report No. 03-09-003-03-390
                                       Department of Labor – Office of Inspector General


                                                                        Exhibit 2
WIA Annual Report Instructions Describing the Elements in Table M for the Adult
and Dislocated Worker Programs

      Table M Element                               Description
Total Participants Served –   Adult and Dislocate Worker program participants
Total Adult Customers         within the reporting period.
Total Participants Served –
Total Adults                  Adult and Dislocated Worker program self-service
(Self Service Only)           participants within the reporting period.
Total Participants Served –
WIA Adults                    Adult program participants within the reporting period.
Total Participants Served –   Dislocate Worker program participants within the
WIA Dislocated Workers        reporting period.
Total Exiters –               Adult and Dislocated Worker program participants
Total Adult Customers         who exited within the reporting period.
Total Exiters –
Total Adults                  Adult and Dislocated Worker program self-service
(Self Service Only)           participants who exited the within the reporting period.
Total Exiters –               All Adult program participants who exited within the
WIA Adults                    reporting period.
Total Exiters –               All Dislocated Worker program participants who
WIA Dislocated Workers        exited within the reporting period.




                                                             WIA Data Validation Program
                                        21                   Report No. 03-09-003-03-390
             Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                   WIA Data Validation Program
              22                   Report No. 03-09-003-03-390
               Department of Labor – Office of Inspector General




Appendices 





                                     WIA Data Validation Program
                23                   Report No. 03-09-003-03-390
             Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                   WIA Data Validation Program
              24                   Report No. 03-09-003-03-390
                                         Department of Labor – Office of Inspector General


                                                                            Appendix A
Background

The Workforce Investment Act of 1998 is designed to provide employment and training
services to assist eligible individuals in finding and qualifying for meaningful
employment and to help employers find the skilled workers they need to compete and
succeed in business. DOL’s ETA is responsible for administering WIA at the Federal
level. WIA goals are to:

   	 increase employment, as measured by entry into unsubsidized employment;

   	 increase retention in unsubsidized employment six months after entry into 

      employment; 


   	 increase earnings received in unsubsidized employment for dislocated workers;
      and

   	 enhance customer satisfaction for participants and for employers.

The Adult and Dislocated Worker programs are authorized under Title IB of WIA. WIA
provides formula-based funding to SWAs to design and operate both of the training
programs. The Adult program provides employment and training activities for adults,
including low-income individuals and public assistance recipients. The Dislocated
Worker program provides reemployment services and retraining assistance to
individuals permanently dislocated from their employment. SWAs can use Dislocated
Worker program funds for rapid response assistance to help workers affected by mass
layoffs and plant closures.

The following table provides appropriated funding for the Adult and Dislocated Worker
programs for the FYs 2006 through 2009.

Table 6: Funding for Adult and Dislocated Worker Programs for FYs 2006-2009
Program            FY 2006           FY 2007         FY 2008        FY 2009
Adult           $ 857,079,000 $ 864,199,000 $ 849,101,000 $861,540,000
Dislocated       $ 1,337,553,000    $ 1,471,903,000     $1,446,189,000 $1,341,891,000
Worker
Total            $ 2,194,632,000    $ 2,336,102,000 $ 2,295,290,000 $2,203,431,000




                                                               WIA Data Validation Program
                                          25                   Report No. 03-09-003-03-390
                                            Department of Labor – Office of Inspector General


WIA programs provide for three tiers, or levels, of service for adults and dislocated
workers:

       Core services - include basic services such as job searches and labor market
       information. These activities may be self-service or require some staff
       assistance. WIA excludes job seekers who receive core services that are self-
       service and informational in nature from being included in the performance
       measures.

       Intensive services - include such activities as comprehensive assessment and
       case management, or activities that require greater staff involvement.

       Training services - include such activities as occupational skills or on-the-job
       training.

Congress enacted GPRA in part to improve the confidence of the American people in
the capability of the federal government, by systematically holding federal agencies
accountable for achieving program results. This is accomplished by agencies setting
program goals, measuring program performance against those goals, and reporting
publicly on their progress. GPRA was intended to improve congressional decision
making by providing more objective information on agencies’ achievement of statutory
objectives, and the relative effectiveness and efficiency of federal programs and
spending.

Subtitle B – Performance Accountability System, Section 136 of WIA requires ETA to
establish a comprehensive performance accountability system to assess the
effectiveness of SWAs and local areas in achieving continuous improvement of
workforce investment activities funded under WIA. WIA requires the SWAs to report
annually to ETA on the progress in achieving their performance measures. The annual
reports need to contain information on participants in workforce investment activities.
ETA is required to make the information contained in the annual reports available to the
general public through publication and other appropriate methods, disseminate State-
by-State comparisons of the information, and provide copies of the reports to the
appropriate congressional committees.

Subtitle E – Administration, Section 185(d) of WIA requires SWAs to submit an Annual
Report to DOL on its Adult and Dislocated Workers program activities pertaining to

          	 the relevant demographic characteristics (including race, ethnicity, sex,
             and age) and other related information regarding participants;

          	 the programs and activities in which participants are enrolled, and the
             length of time that participants are engaged in such programs and
             activities;




                                                                  WIA Data Validation Program
                                             26                   Report No. 03-09-003-03-390
                                           Department of Labor – Office of Inspector General


             outcomes of the programs and activities for participants, including the
              occupations of participants, and placement for participants in
              nontraditional employment;

          	 specified costs of the programs and activities; and

          	 information necessary to prepare reports to comply with WIA Act of 1998,
             Section 188, Nondiscrimination.

WIA also requires DOL to ensure that all elements of the information required for the
reports described above are defined and reported uniformly.

Common Measures

In response to an OMB initiative, ETA began requiring SWAs to implement common
performance measures for WIA programs. The purpose of the OMB initiative was to
established a set of common performance measures to be applied to all federal
employment and training programs administered by DOL, Education, Health and
Human Services, Veterans Affairs, Interior, and Housing and Urban Development. ETA
required SWAs to implement these measures for PY 2005 which began July 1, 2005.
Replacing the definitions for the WIA performance measures that are similar to the
Common Measures with the new definitions allowed ETA to compare outcomes across
all its programs and provide a more uniform picture of outcomes achieved. The
following are the Common Measures ETA uses to report performance for the WIA Adult
and Dislocated Worker program in DOL Annual PAR.

   Entered Employment
   Of those who are not employed at the date of participation:

      Number of adult participants who are employed in the first quarter after the
      exit quarter.
                                     Divided by
      Number of adult participants who exit during the quarter.

   Employment Retention
   Of those who are employed in the first quarter after the exit quarter:

   Number of adult participants who are employed in both the second and third
   quarters after the exit quarter
                                     Divided by
   Number of adult participants who exit during the quarter.




                                                                 WIA Data Validation Program
                                            27                   Report No. 03-09-003-03-390
                                           Department of Labor – Office of Inspector General


   Average Earnings
   Of those adult participants who are employed in the first, second, and third
   quarters after the exit quarter: :

   Total earnings in the second plus the total earnings in the third quarters after the
   exit quarter
                                      Divided by
   Number of adult participants who exit during the quarter.

In the FY 2008 PAR, DOL reported that Adult and Dislocated Worker programs did not
achieve their performance goals. The Adult program did not achieve one of the three
common measure targets and the Dislocated Worker goal did not achieve two.

Reporting Performance Data

The SWAs submit performance data each October in their WIA Annual Report, ETA
9091. The performance data reported in the WIA Annual Report must be comprised of
information provided by each SWA from their individual WIASRD. ETA established
WIASRD to ensure that all elements of data required for the WIA Annual Reports are
defined and reported uniformly. WIASRD facilitates the collection and reporting of valid,
consistent, and complete information on an individual in order to support the overall
management, evaluation, and continuous improvement of the programs at the local,
state, and federal levels; and shares program performance results with consumers,
taxpayers, Congress and others with an interest in the WIA programs. WIASRD
consists of information on exiters who received WIA Title I – B and National Emergency
Grant programs services. The data is used to support the SWAs’ WIA Annual
Performance Report, ETA 9091. ETA compiles the reported performance data and
posts the data to its Performance and Results website and uses it to report the results
of its performance goals in DOL’s annual PAR.

In the near future, ETA plans to implement the WISPR system to replace WIASRD.
WISPR will be for the programs delivered through the One-Stop delivery system. These
are the Wagner-Peyser, Veterans Employment and Training Service, Workforce
Investment Act Title 1B, National Emergency Grants, and Trade Adjustment Assistance
programs. The WISPR system will standardize data elements for participants served
through the One-Stop delivery system and therefore, reduce duplicate record keeping
by allowing SWAs to use a single set of data specifications and formats to report.

The WIA Annual Report contains tables on various performance calculations, including
the outcomes and participation levels for the Adult and Dislocated Workers programs.
The outcomes are referred to as the Common Measures and the participation levels
contain the total number of individuals served by each program during the PY. SWAs
submit their WIA Annual Report to ETA through the EBSS. ETA provides a copy of the
Annual Report for each SWA to Congress. ETA also publishes each SWA's report on its
performance website. SWAs must complete the report validation prior to submitting their



                                                                 WIA Data Validation Program
                                            28                   Report No. 03-09-003-03-390
                                          Department of Labor – Office of Inspector General


WIA Annual Report. ETA uses data from the WIA Annual Reports to report WIA
performance measure results in DOL’s annual PAR.

Data Validation

In 2004, DOL implemented new data validation requirements that called for SWAs to
review samples of participant files and to use ETA provided software to help SWA
ensure that the performance measures were computed accurately. ETA initiated data
validation to improve the quality of the performance information collected and reported
under WIA. ETA contracted with Mathematica to develop and maintain the data
validation software, referred to as the DRVS. ETA provided the DRVS at no cost to the
SWAs. The intent of the DRVS is to assist SWAs in understanding and complying with
the WIA performance reporting requirements. The SWAs worked directly with
Mathematica for information about application installation, WIA data files, performance
reports, and any other issues related to the DRVS.

Data validation requires SWAs to conduct the following:

      Report validation—assessing whether the SWAs’ software accurately calculated
      performance outcomes. Report validation checks the accuracy of the state
      calculations used to generate the Annual Report, ETA 9091.

      Data element validation—reviewing samples of WIA participant files. Data
      element validation checks the accuracy of the data that the SWAs use to
      calculate performance outcomes.

Data validation is intended to accomplish the following goals:

   	 Detect and identify specific problems with a state’s WIA reporting process,
      including software and data problems, so as to enable the state to correct the
      problems;

   	 Ensure that critical performance data used to direct incentives and sanctions and
      to meet ETA’s GPRA responsibilities are reasonably accurate, by calculating an
      error rate for selected data elements validated on the Annual Report, ETA 9091;

   	 Provide tools that help states and local areas analyze the causes of their
      performance successes and failures by displaying participant data organized by
      performance outcomes;

   	 Minimize the burden on states in conducting the validation by providing DRVS
      standardized software that reads records in the WIASRD format and performs all
      of the processing required to conduct the validation; and

   	 Further minimize the burden on the states by selecting the smallest possible
      validation samples necessary to compute valid error rates.

                                                                 WIA Data Validation Program
                                           29                    Report No. 03-09-003-03-390
                                          Department of Labor – Office of Inspector General


Report Validation

ETA provided software to help SWAs generate the aggregate information required for
performance reports, such as performance outcomes. If SWAs elect to use the
software, they are not required to validate the calculations. To address inconsistencies
in calculating the performance measures, the report validation software verifies the
accuracy of outcomes reported by the SWAs. The report validation checks the accuracy
of the SWAs’ software used to calculate Annual Performance Report, ETA 9091. The
DRVS reads participant records in the WIASRD format and performs all of the
processing required to conduct the validation, and can be used to generate the Annual
Performance Report, ETA 9091 and the WIASRD uploads to ETA. For example, if an
SWA reports, for a particular time frame, that 100 adults found employment after they
received services, the validation software searches through the SWA’s electronic
records to ensure that 100 records are found that match these criteria. SWAs can use
the software in two ways: they can use the software to compute the SWA’s performance
measures, or they can use the software to check the calculations computed by their
SWA’s software to make sure that the measures were calculated accurately

Data Element Validation

Data element validation is due 120 days after the SWAs submit their WIA Annual
Report. ETA selected data elements for validation based on factors such as feasibility
and risk of error. ETA provided software to help the SWAs select a sample of participant
files to be validated that includes participants from each group reported on in the
performance measures — adults, dislocated workers, older youth, and younger youth.
The process compares selected information from a sample of participant exit records
with the original paperwork that contained this information. The validator applies a
series of validity criteria to each sampled record. These criteria, which are based on
federal requirements that determine how data are reported, instruct the validator to
locate specified source documentation and to verify that the state’s data record is
correct as compared to the source documentation. Once the SWA enters its pass/fail
determinations for all sampled records, the DRVS will produce a Data Element
Validation Summary/Analytical Report that lists the error rates for each data element
validated. ETA instructions require that at least 25 data elements be validated for each
program. The number of data elements to be validated could be less than 25 because
SWAs are only required to validate positive data elements. For example, if the
participant is not a veteran, the Veteran Status data element does not have to be
validated. States submit this report to ETA using the DRVS e-Submit functionality.

In the PAR, ETA reported that the data quality for WIA performance goals are rated
Very Good. Part of their basis for the rating was the extensive efforts made toward
improving data quality through the use of the data validation system and monitoring at
both the national and regional levels.




                                                                WIA Data Validation Program
                                           30                   Report No. 03-09-003-03-390
                                           Department of Labor – Office of Inspector General


                                                                               Appendix B
Objective, Scope, Methodology, and Criteria

Objective

The audit objective was to answer the following question.

   Does ETA exercise adequate oversight of the SWAs’ data validation of WIA
   performance data?

Scope

The audit covered data reported by the SWAs for the Adult and Dislocated Worker
program for PY 2006 (July 1, 2006, through June 30, 2007), the latest PY that was
subject to the data validation process at the time of our audit. The results of the SWAs’
data validation of the PY 2006 data were due to ETA February 1, 2008. The audit
covered the data validation process at ETA’s national office, selected ETA regional
offices, and at selected SWAs for PY 2006, and included any changes that may have
subsequently occurred as of the time of our audit. Our audit also included analysis of
reported self-service participant and exiter data covering PYs 2005 through PY 2007.
The analysis did not consider self-service participants and exiters for the Dislocated
Worker program. Self service only participants and exiters for the Dislocated Worker
program would not normally occur often because these individuals typically need and
receive intensive or training services. Additionally, we did not conduct any audit work on
reporting of self-service participants and exiters at the SWAs, except as it pertained to
the analysis of the need for ETA to issue clear instruction to consistently report the
number of these participants.

Because of limited resources and time, we did not use statistical sampling to select the
SWA that would be representative to the universe of 53. Therefore, we decided to
conduct work at three SWAs based on the available audit resources and time frames.
The results of our work can not be projected to the universe of the 53 SWAs.

We judgmentally selected 3 SWAs based on the number of exiters the SWAs reported,
potential problems in how SWAs counted the number of exiters, and whether or not the
SWAs used ETA’s software for their report validation phase:

 SWA          Reason for Selection
 Michigan     Ranked in top 10 for exiters, and used the DRVS.
 Utah         Ranked first in top 10 for exiters, and is a small state in terms of
              population.
 Texas        Ranked in top 10 for exiters, did not use DRVS for data element
              validation in PY 06 because they are using WISPR.

We performed audit work at ETA’s National Office in Washington, D.C. and at ETA’s
regional offices in Chicago, Illinois and Dallas, Texas, because they had jurisdiction

                                                                  WIA Data Validation Program
                                            31                    Report No. 03-09-003-03-390
                                          Department of Labor – Office of Inspector General


over the SWAs selected for the audit. We performed audit work at the following three
SWAs: the Michigan Department of Labor and Economic Growth, Bureau of Workforce
Transformation, in Lansing, Michigan; Utah Department of Workforce Services in Salt
Lake City, Utah; and the Texas Workforce Commission in Austin, Texas. We performed
the audit field work from July 2008 to January 2009.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives.

A performance audit includes an understanding of internal controls considered
significant to the audit objectives and testing compliance with significant laws,
regulations, and other requirements. In planning and performing our audit, we
considered whether internal controls significant to the audit were properly designed and
placed in operation. This included reviewing ETA’s policies and procedures for
administering data validation and reviewing the SWAs’ policies and procedures for
conducting data validation. We confirmed our understanding of these controls and
procedures through interviews and documentation review.

Methodology

In designing the audit, we obtained an understanding of the program by reviewing the
appropriate criteria and prior audit reports, and conducted interviews with ETA National
and regional office management and staff responsible for administering data validation
and performance reporting. At the SWAs we conducted interviews of management and
staff responsible for data validation and reporting data on the SWAs’ WIA Annual
Report to obtain an understanding of their data validation and reporting process. We
also reviewed and evaluated policies and procedures. For the SWAs that did not use
the DRVS, we obtained an understanding of the process used to validate the accuracy
of aggregate performance reports generated by their MIS.

To determine if the SWAs audited complied with ETA’s data validation requirements, we
reviewed their validation processes and tested a statistical sample of their data element
validations. We statistically sampled a representative number of the data element
validations each SWA performed for the Adult and Dislocated Worker programs. The
sample sizes were sufficient to produce statistically valid conclusions for each SWA at
the 95 percent confidence level, with an error rate of no more than plus or minus 7
percent. See Exhibit 1 for the universe and sample size for the Adult and Dislocated
Worker program for each SWA. The universe of data element validations will vary for
each SWA. The DRVS calculates the sample size and small states will have a reduced
precision rate. The results of the statistical projection could only be made on each SWA
and cannot be projected to the population of 53 SWAs because we did not use random
statistical sampling to select the SWAs used in the audit. We used the criteria provided
in Training and Employment Notice (TEN) No. 19-07 as the basis for our testing. ETA


                                                                WIA Data Validation Program
                                           32                   Report No. 03-09-003-03-390
                                                  Department of Labor – Office of Inspector General


instructions required at least 25 data elements13 to be validated for each program along
with its definition and documentation requirements.

To determine if ETA has an effective monitoring process, we visited the ETA regional
offices responsible for the SWAs selected for audit and obtained an understanding of
their monitoring process and related policies and procedures. To determine if ETA had
an effective system in place to ensure that reported performance data is reviewed and
compiled accurately for the PAR, we obtained an understanding of the process they
used and performed analytical review of the data for outliers. We used a schedule
provided by ETA to determine funding for data validation. We compared the schedule to
the contracts awarded to, invoices received from, and payments made to Mathematica.
We also reviewed Mathematica’s proposal for ETA Data Validation Implementation
Assistance.

We obtained an understanding of the reporting process and the relationship of the
various data involved to determine if the SWAs were accurately reporting participant
and exiter data. Based on this understanding, we analyzed the data to draw conclusion
to identify the accuracy and consistency of reporting by the SWAs. We also had
discussions with ETA officials at headquarters and the Dallas Regional Office, as well
as officials at Mathematica, about Table M reporting instructions. Based on those
discussions we compiled an excel spreadsheet which disclosed that Utah and Texas did
not accurately account for their self-services participants. We did not review source
documentation or perform testing at the SWAs.

In performing the audit, we evaluated internal controls used by ETA and the SWAs for
reasonable assurance that data validation was administered and conducted in
accordance with Federal and internal requirements. Our consideration of ETA’s and the
SWAs’ internal controls for administering and conducting data validation would not
necessarily disclose all matters that might be reportable conditions. Because of inherent
limitations in internal controls, misstatements, losses, or noncompliance may
nevertheless occur and may not be detected.

In planning and performing the audit we relied on computer-generated data. We
assessed the reliability of performance data by performing analytical procedures of data
in the SWAs’ Annual Report and by testing a statistical random sample of data element
validations performed by the SWAs selected for audit. We concluded the data was
sufficiently reliable to use to judgmentally select the SWAs for audit. At the SWA’s we
relied on computer-generated lists of data element validations conducted for PY 2006.
We used audit command language tools to analyze and compare these lists to data
element validation data on the same SWAs provided by ETA. We considered the data
to be materially complete to conduct our sampling of data validation reviews.



13
  The number of data elements to be validated could be less than 25 because SWAs are only required to
validate positive data elements. For example, if the participant is not a veteran, the Veteran Status data
element does not have to be validated

                                                                            WIA Data Validation Program
                                                   33                       Report No. 03-09-003-03-390
                                           Department of Labor – Office of Inspector General


Criteria

We used the following criteria in performing the audit.

      Workforce Investment Act of 1998, Public Law 105–220, August 7, 1998

      20 CFR Part 652 et al. Workforce Investment Act; Final Rules - August 11, 2000

      GPRA of 1993

      OMB Memorandum, M-02-06, Planning for the President’s Fiscal Year 2004
      Budget Request, April 24, 2002

      OMB Circular A-11, Preparation, Submission, and Execution of the Budget, Part
      6—Preparation and Submission of Strategic Plans, Annual Performance Plans,
      and Annual Program Performance Reports, June 26, 2008

      OMB Circular A-123, Management’s Responsibility for Internal Control, June 21,
      1995, and revisions issued December 21, 2004

      GAO Internal Control Standards, November 1999

      TEGL 3-03, Data Validation Policy for Employment and Training Programs,
      August 20, 2003

      TEGL 14-02, Data Validation Initiative, May 28, 2003

      TEGL 17-05, Common Measures Policy for the ETA Performance Accountability
      System and Related Performance Issues, February 17, 2006

      TEN 19-07 Program Year 2006/Fiscal Year 2007 Performance Reporting and
      Data Validation Timelines, December 11, 2007

      DRVS User Handbook, versions June 2004, November 2006, and August 2007

      ETA Core Monitoring Guide, April 2005

      ETA Draft Data Validation Monitoring Guide, February 2006




                                                                 WIA Data Validation Program
                                            34                   Report No. 03-09-003-03-390
                                       Department of Labor – Office of Inspector General


                                                                         Appendix C
Acronyms and Abbreviations


     CFR         Code of Federal Regulations

     DOL         Department of Labor

     DRVS        Data Reporting and Validation System

     EBSS        Enterprise Business Support System

     ETA         Employment and Training Administration

     FY          Fiscal Year

     GAO         Government Accountability Office

     GPRA        Government Performance and Results Act

     Mathematica Mathematica Policy Research

     MIS         Management Information System

     OIG         Office of Inspector General

     OMB         Office of Management and Budget

     PAR         Performance and Accountability Report

     PY          Program Year

     SWA         State Workforce Agencies

     TEGL        Training and Employment Guidance Letter

     TEN         Training and Employment Notice

     TWC         Texas Workforce Commission

     WIA         Workforce Investment Act

     WIASRD      Workforce Investment Act Standard Record Data

     WISPR       Workforce Investment Streamlined Performance Reporting



                                                             WIA Data Validation Program
                                        35                   Report No. 03-09-003-03-390
             Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                   WIA Data Validation Program
              36                   Report No. 03-09-003-03-390
                  Department of Labor – Office of Inspector General


                                                     Appendix D
Agency Response




                                        WIA Data Validation Program
                   37                   Report No. 03-09-003-03-390
Department of Labor – Office of Inspector General




                      WIA Data Validation Program
 38                   Report No. 03-09-003-03-390
Department of Labor – Office of Inspector General




                      WIA Data Validation Program
 39                   Report No. 03-09-003-03-390
Department of Labor – Office of Inspector General




                      WIA Data Validation Program
 40                   Report No. 03-09-003-03-390
Department of Labor – Office of Inspector General




                      WIA Data Validation Program
 41                   Report No. 03-09-003-03-390
Department of Labor – Office of Inspector General




                      WIA Data Validation Program
 42                   Report No. 03-09-003-03-390
TO REPORT FRAUD, WASTE, OR ABUSE, PLEASE CONTACT:

Online:	      http://www.oig.dol.gov/hotlineform.htm
Email:	       hotline@oig.dol.gov

Telephone:	   1-800-347-3756
              202-693-6999

Fax:          202-693-7020

Address:      Office of Inspector General
              U.S. Department of Labor
              200 Constitution Avenue, N.W.
              Room S-5506
              Washington, D.C. 20210
